No. 19-7

In the Supreme Court of the United States
_______________
SEILA LAW LLC,
Petitioner,
v.
CONSUMER FINANCIAL PROTECTION BUREAU,
Respondent.
_______________
On Writ of Certiorari to the United States
Court of Appeals for the Ninth Circuit
_______________
BRIEF OF PROFESSOR JOHN HARRISON AS
AMICUS CURIAE IN SUPPORT OF COURTAPPOINTED AMICUS CURIAE ON
PRUDENTIAL RIPENESS
_______________
JOHN HARRISON
Counsel of Record
UNIVERSITY OF VIRGINIA
SCHOOL OF LAW
580 Massie Road
Charlottesville, VA 22903
(434) 924-3093
jh8m@law.virginia.edu

January 22, 2020

QUESTION PRESENTED
Whether the Court may address the question of
severability before it addresses the constitutional
issue, and, if it finds that the CFPB’s investigative
authority is severable from the removal restriction,
avoid reaching the constitutional issue.

ii
TABLE OF CONTENTS
QUESTION PRESENTED...........................................i
TABLE OF AUTHORITIES ...................................... iii
INTEREST OF AMICUS CURIAE ............................ 1
SUMMARY OF ARGUMENT ..................................... 1
ARGUMENT ............................................................... 2
A. The CFPB’s Investigative Authority Is
Inoperative Only If It Is Inseverable from
the Removal Restriction................................ 3
B. The Order in Which the Court Addresses
Severability and the Constitutional
Question Is Within Its Discretion, Guided by
Prudential Considerations ............................ 4
CONCLUSION .......................................................... 14

iii
TABLE OF AUTHORITIES
CASES
Alaska Airlines, Inc. v. Brock,
480 U.S. 678 (1987) ...................................... 8, 9, 11
Ayotte
v. Planned Parenthood of N. New England,
546 U.S. 320 (2006) ..............................................10
Bowsher v. Synar,
478 U.S. 714 (1986) ................................................5
Buckley v. Valeo,
424 U.S. 1, 108 (1976) ............................................8
Champlin Ref. Co. v. Corp. Comm’n of Okla.,
286 U.S. 210 (1932) ............................................4, 8
Free Enter. Fund
v. Pub. Co. Accounting Oversight Bd.,
561 U.S. 477 (2010) ........................................11, 12
Hill v. Wallace,
259 U.S. 44 (1922) ..................................................9
INS v. Chadha,
462 U.S. 919 (1983) ............................................7, 8
Marbury v. Madison,
5 U.S. (1 Cranch) 137 (1803) .................................5
Massachusetts v. Mellon,
262 U.S. 447, 488 (1923) ........................................7
NLRB v. Noel Canning,
573 U.S. 513 (2014) ..............................................11
Printz v. United States,
521 U.S. 898 (1997) ..............................................12

iv
Root v. Ry. Co.,
105 U.S. 189 (1882) ..............................................10
Sessions v. Morales-Santana,
137 S. Ct. 1678 (2017) ............................................6
STATUTE
28 U.S.C. §2201 .........................................................13

INTEREST OF AMICUS CURIAE



John Harrison is a professor at the University of
Virginia School of Law. He teaches and writes about
constitutional structure, federal courts, and related
issues, including severability, and he has an interest
in the sound development of the law in these fields.
SUMMARY OF ARGUMENT
Court-appointed amicus recommends that the
Court avoid the constitutional question on grounds of
prudential ripeness. The Court can do that by
considering the question of severability first, and, if it
concludes that the CFPB’s investigative authority is
severable from the removal restriction, concluding
that petitioner is not entitled to relief without
reaching the constitutional issue. Petitioner’s claim
rests on inseverability: petitioner alleges that the
removal restriction, to which it is not subject, is
unconstitutional, not that the agency’s investigative
power, to which it is subject, is unconstitutional. The
Court has prudential discretion to address those
issues in either sequence, because both bear on the
content of the rule of decision for this case. A court
that decides a constitutional question is identifying



No party’s counsel authored this brief in whole or in part, and
no counsel or party made a monetary contribution intended to
fund its preparation or submission. The University of Virginia
School of Law provides financial support for activities related to
faculty members’ research and scholarship, which helped defray
the costs of preparing this brief. (The School is not a signatory
to the brief, and the views expressed here are those of the amicus
curiae.) Otherwise, no person or entity other than the amicus
curiae has made a monetary contribution intended to fund the
preparation or submission of this brief.

2
the content of the applicable law, if necessary
applying the principle that unconstitutional statutory
rules are invalid. A court that decides a question of
severability is construing the statute. It is identifying
the application of the statute in light of a finding, or
assumption for purposes of severability analysis, of
unconstitutionality. In neither situation does the
court apply a remedy in the sense of a judicial act that
changes legal relations. Questions of severability can
be described as questions of remedy in order to
distinguish them from the constitutional questions
with which they are connected. Courts do not,
however, change the content of statutory law, either
when they find a statutory rule unconstitutional or
when they decide how much of a statute remains in
place, or would remain in place, in light of partial
unconstitutionality. Issues of severability thus arise
in determining parties’ primary legal relation, not in
deciding on the remedy in the sense of a judicial act
that changes those relations.
ARGUMENT
Court-appointed amicus suggests that the Court
decline to decide the constitutional question presented
in this case on grounds of prudential ripeness. CourtAppointed Amicus Br. 21-27. This brief suggests
another argument in support of that position, one
involving the Court’s option to address severability
before it addresses the constitutional issue. If the
Court considers severability first, and finds the
CFPB’s investigative authority to be severable from
the removal restriction, petitioner will not be entitled
to relief, whether or not the removal restriction is
unconstitutional. That sequence of decision, and that
resolution of the severability issue, would make

3
resolution of the constitutional question unnecessary.
The order in which the Court considers the
constitutional question and the severability question
is within its discretion and is governed by prudential
considerations. If the Court concludes that the
CFPB’s investigative power and the removal
restriction are severable, it can decline to resolve the
constitutional question on grounds of prudential
ripeness.
A. The CFPB’s Investigative Authority Is
Inoperative Only If It Is Inseverable
from the Removal Restriction.
Petitioner is subject to the CFPB’s investigative
power. Neither the President’s removal power nor the
statutory restriction thereon applies to petitioner, and
the President has not taken any step that would bring
the removal restriction into play. Petitioner does not
argue that the grant of investigative power is, by
itself, unconstitutional. Petitioner’s constitutional
objection is to the removal restriction. Petitioner
therefore can prevail as to the investigative demands
at issue in this case only if the statute’s grant of
investigative power is implicitly conditioned on the
validity of the removal restriction – that is, only if the
former is inseverable from the latter. In order to
obtain relief, petitioner thus must prevail on two
issues. If the Court resolves either issue against
petitioner, petitioner cannot obtain relief.

4
B. The Order in Which the Court Addresses
Severability and the Constitutional
Question Is Within Its Discretion,
Guided by Prudential Considerations.
In cases like this, the Court may turn to the
severability question first. If it then concludes that
the applicable aspect of the statute is severable from
the allegedly unconstitutional aspect, it denies relief
to the party raising the constitutional objection. See,
e.g., Champlin Ref. Co. v. Corp. Comm’n of Okla., 286
U.S. 210, 234 (1932) (declining to address a
constitutional challenge to a part of the statute that
was not applicable in the case, on the grounds that if
that part was unconstitutional, it was also severable).
A conclusion of severability enables the Court to avoid
the constitutional question because if the applicable
aspect of the statute at issue – here, the CFPB’s
investigative power – is severable from the challenged
aspect, the applicable aspect is valid whether or not
the challenged provision is constitutional. If the
challenged aspect is constitutional, then severability
does not arise.
If the challenged aspect is
unconstitutional but the applicable aspect is
severable, the latter continues to apply. A finding of
severability makes the constitutional issue irrelevant
to the outcome, and so enables the Court to decline to
decide it.
The Court has discretion concerning the sequence
in which to decide these two issues because they both
figure in identifying the operative rule of decision in
the case. Neither is prior to the other. Questions
concerning the constitutionality of statutes arise
because statutory rules that are inconsistent with the
Constitution are invalid and inoperative, and hence

5
form no part of the rule of decision in a case. See
Marbury v. Madison, 5 U.S. (1 Cranch) 137 (1803). In
similar fashion, questions of severability sometimes
must be resolved in order to identify the rule that
applies to the case before a court. That aspect of
severability is especially prominent in cases like
Bowsher v. Synar, 478 U.S. 714 (1986), in which the
relevant statute contains an explicit fallback
provision, one that tells the court what the applicable
rule is in case the statute as written is partly
unconstitutional. Id. at 735-36.1 Severability clauses,
which instruct the courts to apply provisions that are
not themselves unconstitutional, also provide an
applicable rule in the contingency of partial
unconstitutionality.

1

The Court’s conclusion that the constitutional issue in Bowsher
was ripe for review, 478 U.S. at 727 n. 5, does not entail that the
constitutional issue in this case may not be avoided by
addressing severability first. Like this case, Bowsher involved a
provision regarding removal – there, a congressional removal
power, rather than a restriction on presidential removal as here
– that had not been put into operation. The parties who raised
the constitutional issue in Bowsher were subject to a power
granted by the statute, the power to rescind appropriations that
benefited them. 478 U.S. at 721. Because the statute at issue in
that case had an explicit fallback rule, one that in effect made
the rescission power inseverable from the congressional power to
remove the Comptroller General, 478 U.S. at 735-36, the Court
could not avoid the constitutional issue by resolving severability
first: the content of the statute as it applied to the parties differed
depending on the resolution of the constitutional issue, as it does
not here if the CFPB’s investigative power is severable from the
removal restriction.

6
Because questions of constitutionality and
severability both go to determining the content of the
law the court is to apply, they can be addressed in any
order. A court may decide whether a challenged
provision is constitutional and then turn to
severability, if it finds the provision to be
unconstitutional. A court may also decide first
whether the applicable provision is severable, and
only if it is not, then turn to the constitutional
question. Both sequences are permissible, and the
choice between them is governed by prudential
considerations. See Sessions v. Morales-Santana, 137
S. Ct. 1678, 1701-02 (2017) (Thomas, J., concurring in
the judgment in part) (Court need not decide a
constitutional question when the resolution of that
question does not affect the outcome).
The sequence in which constitutionality and
severability are addressed is not governed by the
general (though by no means exceptionless) practice
of determining the primary legal relations of parties
before turning to the question of remedy.
“Invalidation” of statutes, either on grounds of
unconstitutionality or inseverability, is not a remedy
in the sense relevant to the practice of deciding the
primary issues first and the remedy next. A remedy
changes the legal relations of parties, as when an
injunction creates a new obligation that enforces a
pre-existing obligation.
The first principle of
American constitutionalism is that sub-constitutional
legal rules that conflict with the Constitution are
invalid and hence inoperative in court. According to
that principle, the Constitution itself causes lowerlevel rules that conflict with it to be invalid and
inapplicable. Courts engaged in judicial review

7
recognize invalidity, but do not, strictly speaking,
bring it about themselves.
We have no power per se to review and annul
acts of Congress on the grounds that they are
unconstitutional. That question may be
considered only when the justification for
some direct injury suffered or threatened,
presenting a justiciable issue, is made to rest
upon such an act. Then the power exercised
is that of ascertaining and declaring the law
applicable to the controversy. It amounts to
little more than the negative power to
disregard an unconstitutional enactment,
which otherwise would stand in the way of
the enforcement of a legal right.
Massachusetts v. Mellon, 262 U.S. 447, 488 (1923). If
courts literally invalidated statutes on constitutional
grounds, the decision of a single trial court, state or
federal, that a federal statute is unconstitutional,
would make the statute ineffective as to all parties
throughout the country. The decisions of this Court,
because of their nationwide precedential effect, have
consequences similar to an actual change in the
content of the law. That similarity is not identity: the
Constitution, not the courts, brings about invalidity.2

2

Standard terminology can be misleading in this connection. It
is common to say that a court that has found a statutory
provision unconstitutional has invalidated it. Such statements
refer to the holding and its precedential effect, not to the remedy.
For example, Justice White, in dissent in INS v. Chadha, 462
U.S. 919 (1983), criticized the “apparent sweep” of the decision,
saying that it “appears to invalidate all legislative vetoes

8
Just as courts do not, strictly speaking, apply a
remedy of invalidation that causes statutory rules to
be inoperative, so they do not decide, on severability
grounds, whether aspects of a statute that are not
themselves unconstitutional are to be made invalid as
part of a remedy. Instead of changing the content of
the statutory law, courts that decide on severability
identify that content in light of a finding of
unconstitutionality, or on an assumption of
unconstitutionality made for purposes of severability
analysis. That is why questions of severability are
questions of statutory construction. Reflecting that
feature of severability analysis, the Court sometimes
formulates the question of severability as a
counterfactual inquiry into what Congress would have
done. “‘Unless it is evident that the Legislature would
not have enacted those provisions which are within its
power, independently of that which is not, the invalid
part may be dropped if what is left is fully operative
as a law.’” Buckley v. Valeo, 424 U.S. 1, 108 (1976)
(per curiam) (quoting Champlin, 286 U.S. at 234).
The Court also describes severability in the terms it
often uses in construing statutes, those of
congressional intent. “There is abundant indication of
a clear congressional intent of severability both in the
language and structure of the Act and in its legislative
history.” Alaska Airlines, Inc. v. Brock, 480 U.S. 678,
687 (1987).

irrespective of form or subject.” 462 U.S. at 974 (White, J.,
dissenting). He did not mean that the relief granted to Chadha
in that case had an effect on other statutes. He meant that the
precedential effect of the Court’s holding apparently would entail
that all legislative vetoes would be treated as inoperative.

9
Courts that engage in severability analysis
construe, but do not change, the statutes before them.
That basic feature of severability itself imposes a
constraint on that inquiry, and that constraint shows
that severability analysis is statutory construction.
Courts sometimes conclude that having found a
statute partially unconstitutional, they cannot
identify any remaining constitutional aspects,
because to do so would require that the court rewrite
the statute as a legislature might. See, e.g., Hill v.
Wallace, 259 U.S. 44, 70-72 (1922), which the Court in
Alaska Airlines described as holding the statute at
issue in that case “nonseverable because valid and
invalid provisions [were] so intertwined that the
Court would have to rewrite the law to allow it to
stand,” Alaska Airlines, 480 U.S. at 684. That
limitation results from the character of severability
analysis as statutory interpretation.
When the
legislature has not given the courts enough implicit or
explicit guidance concerning the statute’s application
in the contingency of unconstitutionality, courts
cannot supply the missing fallback rule themselves,
because they cannot legislate. If courts were able
truly to change the content of the law by “severing”
statutes, exercising remedial discretion in order to do
so, they would not be subject to that limitation.
When a court finds that a statute is partly or
wholly unconstitutional, it is finding the law and not
changing it. When a court finds that a constitutional
aspect of a statute is inseverable from an
unconstitutional aspect, it is finding the law and not
changing it. The decision about how much of a statute
survives a finding of unconstitutionality is not a
decision about how much to make invalid, and

10
therefore does not involve a remedy.3 If severability
were to be conceived of as a remedy for purposes of the
sequence in which issues are addressed, the Court’s
practice of avoiding constitutional issues by
addressing severability first would not be called into
question. Genuine questions of remedy may be
resolved before the court addresses the primary issue,
and sometimes the resolution of a genuine question of
remedy will obviate the need to consider the primary
issue. For example, courts that are asked to give
equitable relief may pretermit inquiry into the
primary question by deciding that no relief will be
available because of equitable principles governing
remedies. A court may decline equitable relief by
finding that the plaintiff would have an adequate
remedy at law, without deciding whether the plaintiff
has suffered or is threatened with wrongful injury.
See, e.g., Root v. Ry. Co., 105 U.S. 189 (1882) (denying
3

Questions of severability can bear on the appropriate remedy to
be given, and so can arise at the point in a court’s analysis when
the court is considering the remedy. That does not mean that
severance or non-severance are themselves remedies in the sense
of directives that alter the content of the statute, the way an
injunction alters a party’s obligations. In Ayotte v. Planned
Parenthood of Northern New England, 546 U.S. 320 (2006), for
example, the question of severability arose in deciding on the
proper scope of the injunctive and declaratory remedies in that
case. The lower courts had completely enjoined the defendant
from enforcing the New Hampshire statute at issue. Id. at 325.
The Court vacated that judgment and remanded for
consideration of narrower relief, depending on legislative intent
concerning severability. Id. at 331-332. Severability can be
relevant to the remedy in a case because the remedy should track
the parties’ rights and obligations, which are found in the
primary law, not because courts alter the content of the statutory
rules that apply to the parties.

11
equitable relief because the remedy at law was
adequate, without passing on the merits of the
plaintiff’s claim).
Petitioner suggests that the Court need not,
should not, and perhaps may not address severability.
Pet’r. Br. 35-41. Petitioner can prevail only if the
CFPB’s investigative power, to which it is subject, is
inseverable from the removal restriction, which is not
in operation in this case. Petitioner’s suggestion that
“an agency with a structural constitutional defect
lacks the authority to take executive action,” id. at 36,
states far too broad a principle. Different flaws
related to constitutional structure have different
consequences. An officer whose appointment is
inconsistent with the Constitution's rules concerning
appointment cannot exercise governmental power,
see, e.g., NLRB v. Noel Canning, 573 U.S. 513 (2014)
(appointments of NLRB members held inconsistent
with Recess Appointments Clause), because an
individual without a valid appointment is not an
officer. Not all flaws of constitutional structure in the
statute empowering an agency make the agency
incapable of exercising power, however. The Court
found an unconstitutional removal restriction to be
severable from the grant of agency power in Free
Enterprise Fund v. Public Co. Accounting Oversight
Board, 561 U.S. 477, 508-10 (2010).
Petitioner’s claim for relief is like that of the
airlines in Alaska Airlines. They were regulated
parties subject to employee-protection rules found in
a statute with a legislative veto and to implementing
regulations that the statute had made subject to that
veto. Alaska Airlines, 480 U.S. at 682-683. The
statutory rules and the regulatory authority were not

12
themselves unconstitutional, just as the CFPB’s
investigative authority is not unconstitutional. Just
as the airlines were free from the statute’s rules and
the FAA’s regulatory authority only if those rules and
that authority were inseverable from the
unconstitutional legislative veto, petitioner is free
from the CFPB’s investigative authority only if that
authority is inseverable from a removal restriction
that is itself unconstitutional.4
Petitioner seeks relief from the CFPB’s
5
investigative demand. Pet’r. Br. 37. Whether that
4

In some cases, the court need not and probably should not
address severability. Petitioner is correct, Pet’r. Br. 39, that
Printz v. United States, 521 U.S. 898 (1997), was such a case.
Sheriff Printz had an obligation under a statutory provision that,
he argued, was unconstitutional. Id. at 904. His claim for relief
did not rely on inseverability. The Court declined to resolve the
question whether private firearms dealers and purchasers were
relieved of their obligations under the statute on the grounds
that those obligations were inseverable from the obligations of
government officials like Printz. Id. at 935. “These are
important questions, but we have no business answering them
in these cases. These provisions burden only firearms dealers
and purchasers, and no plaintiff in either of those categories is
before us here. We decline to speculate regarding the rights and
obligations of parties not before the Court.” Id. Unlike Sheriff
Printz and like the private parties the Court discussed in Printz,
petitioner can prevail only on grounds of inseverability.

5

Petitioner has not sought a declaratory judgment. The Court
directed the issuance of a declaratory judgment in Free
Enterprise Fund, 561 U.S. at 513. Whether a declaratory
judgment would be appropriate in a case like this is doubtful.
The declaratory judgment statute provides that “in a case of
actual controversy within its jurisdiction,” any court of the
United States “may declare the rights and other legal relations

13
relief is appropriate depends on the content of the law
concerning the CFPB’s authority, which depends on a
question of severability and possibly one of
constitutionality. The constitutional question may be
avoidable, but the severability question is not.

of any interested party seeking such declaration.” 28 U.S.C.
§2201. The removal restriction at issue in this case involves legal
relations between the President and the Director of the CFPB. A
declaration that the President has power to remove the Director
at pleasure and that the Director is liable to the exercise of that
power, or a declaration that the President is disabled from
removing the Director contrary to the statute and the Director
has immunity from any such removal, would declare the legal
relations of the President and the Director. Were petitioner to
seek a declaration concerning the President’s removal authority,
that judgment would not “declare the rights and other legal
relations” of a party “seeking such declaration,” because the legal
relations between the President and the Director are not those of
petitioner.

14
CONCLUSION
The Court may decide to consider the question of
severability first, and if it does so, and decides that
the CFPB’s investigative power is severable from the
removal restriction, the judgment below should be
affirmed.
Respectfully submitted,

January 22, 2020

JOHN HARRISON
Counsel of Record
UNIVERSITY OF VIRGINIA
SCHOOL OF LAW
580 Massie Road
Charlottesville, VA
22903
(434) 924-3093
jh8m@law.virginia.edu

